                                                   U.S. SMALL BUSINESS ADMINISTRATION 

                                                         OFFICE OF INSPECTOR GENERAL 





                                                                                                ADVISORY MEMORANDUM
                                                                                                        REPORT   No. 12-04

DATE: 	            DECEMBER    6, 2011

To: 	              Joseph G. Jordan
                   Associate Administrator
                   Government Contracting and Business Development

SUBJECT: 	         Small Business Administration's Rationale for Excluding Certain Types of Contracts from
                   the Annual Small Business Procurement Calculations Needs to be Documented

This is to notify you that we have terminated the audit of the Reliability of the Small Business
Administration's (SBA) Small Business Goaling Report. However, in the course of that audit we found
                                                                                                   1
that the SBA had not updated its Goaling Guidelines for the Small Business Preference Programs
(Goaling Guidelines). The Goaling Guidelines provide policy direction to Federal agencies pertaining to
the establishment of annual small business goals and the reporting of procurement activity. Specifically,
SBA officials did not revise the Goaling Guidelines to reflect the Office of General Counsel's opinions on
excluding certain types of contracts from the dollar base to calculate the various small business goals. In
                                                           2
addition, in August 2001, the General Accounting Office reported on SBA's contract exclusions and
recommended that the SBA document its rationale for excluding contracts from the small business
baseline.

The objective of this review was to determine the adequacy of SBA's actions toward implementing the
GAO's recommendations. To achieve our objective, we reviewed applicable legislation, prior GAO audit
reports, regulations, policies and procedures, and other Agency guidance and reports on goaling
guidelines for the small business preference programs. We also interviewed personnel from the SBA's
Office of Government Contracting and Business Development, and Office of General Counsel. We
conducted our review between December 2010 and February 2011, in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States.

Background
The Small Business Act (the Act) establishes policy that small businesses should be given the maximum
practicable opportunity to participate in providing goods and services to the Federal government.
To facilitate the government's ability to track small business procurement achievement, agencies report
their contract award data in the Federal Procurement Data System-Next Generation database
administered by the Federal Procurement Data Center - a unit of the General Services Administration.
                                                                                  3
The Act also establishes a goal that not less than 23 percent of prime contracting dollars be awarded to

IGoaling Guidelines for the Small Business Preference Programs for Prime and Subcontract Federal Procurement
 Goals & Achievements, July 3, 2003.
2Now known as the Government Accountability Office (GAO).
3 A prime contract is any direct contract between the government and a contractor.
small businesses each fiscal year. The SBA includes the total dollars obligated on all prime contracts
awarded each fiscal year using appropriated funds and that are subject to the Federal Acquisition
Regulations (FAR) to calculate the goaling baseline. As such, the SBA excludes contracts not covered by
the FAR and those awarded with non-appropriated funds from the goaling baseline. They also exclude
certain other contract categories from the goaling baseline, including those:

                                                       S
       •   awarded to mandatorl and directed sources;
                                            6
       •   awarded and performed abroad ;
                                      6
       •   performed entirely abroad ;
       •   made by credit card that are less than $2,500, or
       •   acquisitions made by agencies on behalf of foreign governments or international organizations.

The SBA provides goaling guidance - including information on exclusions from the goaling baseline - in
its Goaling Guidelines. The Goaling Guidelines are the only source of instruction available to
participating agencies on exclusions to the small business goaling baseline.

Results
SBA officials implemented the GAO's recommendations by establishing the rationale for contract
                                                                           7
exclusions and the IIreason for non-report" in its 2003 Goaling Guidelines • However, in late fiscal
year 2007, officials from the SBA's Office of Policy and Research and the Office of Government
Contracting and Business Development requested that the Office of General Counsel (OGe) provide an
opinion regarding the legal basis for the goaling report contract exclusions. As a result of the research,
the OGC prepared two memoranda during fiscal year 2008 to provide a legal and statutory analysis for
the goaling exclusions.

                              8
In the first memorandum (prepared in final), the OGC opined that it was reasonable to include
contracts awarded and/or performed overseas in the small business goaling baseline. However, SBA
officials did not revise the Goaling Guidelines so that small business contracts performed abroad were
included in determining the goaling baseline.

                                  9
In the second memorandum (prepared in draft), the drafter discussed other excluded procurements
that could and/or should be included in the small business goaling baseline. Since the memorandum
was not finalized, it is unclear whether the draft reflects SBA's final position on these issues. Therefore,
SBA officials did not revise the Goaling Guidelines to address these exclusions. As a result, if there are
other procurements that should be included in the small business baseline, the goaling baseline may not
accurately measure small business procurements.




4 Bylaw, agencies must award certain contracts to "mandatory sources." Examples include commodities produced by
 the Federal Prison Industries (known as UNICOR) or the JWOD Participating Nonprofit Agency (formerly Sheltered
 Workshop).
sThe "purchasing" agency has no discretion in making the award.
6Based on a study cited in House of Representatives Report No. 110-111, Part 1 (2007), inclusion of foreign contract
 opportunities in the Federal prime contracts baseline would have reduced small business participation to 19.3 percent of all
 Federal contracts.
7www.sba.gov/sites/default/files/goals goaling guidelines.pdf

8Application of Small Business Act (Act) to Federal procurement contracts awarded and/or performed outside of the
 United States, July 2,2008.
9Exemptionsfrom Goaling, January 25,2008.

                                                               2

Conclusion
As of November 2011, the OGC had not finalized the draft memorandum and SBA officials had not
updated the Goaling Guidelines to address certain types of contract exclusions. Agency officials were
unable to provide a clear explanation for not finalizing the draft memorandum on Exemptions from
Goaling and for not revising the Goaling Guidelines to address the aGe's analyses. Consequently, SBA's
analyses on goaling guidance remain unclear and incomplete. Additionally, some procurement actions
may be inappropriately excluded from the small business goaling calculation. Incomplete data weakens
the ability of Congress and other Federal policy makers to determine whether the Government is
maximizing contracting opportunities for small businesses.

We believe that SBA officials should complete its analyses of the legal basis for exclusions and revise the
Goaling Guidelines to explain its rationale to the public either on its website or through a Federal
Register Notice.

Recommendations
We recommend that the Associate Administrator, Government Contracting and Business Development:

1. 	 Revise the Goaling Guidelines for the Small Business Preference Programs to include contracts
     awarded and/or performed overseas in the small business goaling baseline beginning with fiscal
     year 2011.

2. 	 Request the Office of General Counsel to finalize the draft memorandum entitled, Exemptions from
     Goaling, January 25, 2008.

3. 	 Based on the Office of General Counsel final opinion on the Exemptions from Goaling, revise the
     Goaling Guidelines as appropriate.

4. 	 Notify the General Services Administration - Federal Procurement Data Center - of any necessary
     programming updates to the Federal Procurement Data System-Next Generation resulting from
     changes to goaling guidance on contract exclusions.

5. 	 Issue revised Goaling Guidelines in the Federal Register notifying participating agencies of any
     changes to goaling guidance on contract exclusions.




                                                     3

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE


On October 12, 2011, we provided a draft of this advisory memorandum to the Associate Administrator
for Government Contracting and Business Development for comment. On November 2, 2011, the acting
director for the Office of Government Contracting submitted formal comments, which are contained in
their entirety in Appendix I. The acting director generally disagreed with the recommendations. It
should be noted that we made five recommendations in the advisory memorandum. The agency's
comments address only four of the recommendations, as they did not address recommendation
number 3 and re-numbered our recommendations. A summary of management's comments and our
response follows.

Management Comments


Management agrees that there is no exception in the Small Business Act for contracts awarded or
performed overseas and that its programs apply to contracts awarded or performed overseas.
Management contends, however, that a provision in the Federal Acquisition Regulations (FAR) limits the
application of SBA's small business programs to the United States and its outlying areas. Management
asserts that until the Government changes the FAR, procuring agencies will not apply the Small Business
Act to contracts awarded and/or performed overseas, and the SBA will not include those contracts as
part of its small business goaling baseline. According to Management, the SBA attempted to change the
FAR provision at issue, but was not successful.

Management was also concerned over our reference to a draft legal memorandum. They indicated the
draft legal memorandum is a predeliberative and predecisional document that merely reflects the
personal opinions of the writer and not the policy of the agency. As a result, they do not believe the OIG
can require or instruct an agency to finalize a draft document, especially a legal document. Further,
Management objects to any reference to the draft memorandum in the OIG advisory report since it
would be exempt from public release under the Freedom of Information Act as a privileged document.
Finally, Management stated there is no need to implement our recommendations four and five.

OIG Response


The Small Business Act sets a minimum Government-wide goal for participation by small business
concerns of not less than 23 percent of the total value of all prime contracts. The 2008 legal opinion by
OGC stated lIit would be a reasonable interpretation of the Act to state that its goaling provisions
applied to contracts awarded and/or performed overseas." The Management response, however, takes
a different approach based upon the FAR § 19.000(b). We do not believe the FAR provision cited by
Management determines whether a contract awarded to a domestic small firm that is performed
overseas can be recorded as a small business contract for goaling purposes.                  That provision
(FAR § 19.000(b)) states only that IIThis part, except for Subpart 19.6, applies only in the United States or
its outlying areas." The question of whether agencies use the procedures in Part 19 to award contracts
to small and socio-economically disadvantaged firms appears to be separate from the question of
whether contracts that are awarded to such firms for performance overseas should be counted toward
meeting agency goaling obligations.

In addition, Management's response advises that SBA has actually rendered an interpretation that under
the FAR, lithe Small Business Act applies to contracts awarded by contracting offices located within the
United States, but where contract performance takes place overseas." However, Management believes

                                                     4

that most agencies are likely taking the position that the Act does not apply to contracts performed
and/or awarded overseas. We believe this response does not give adequate consideration to the fact
that Congress has charged SBA, not procuring agencies, with authority to interpret the Small Business
Act and to establish the goaling guidance. The SBA Administrator appears to have sufficient authority to
define which government contracts should be included in the goaling calculations.

Regarding Management's comment on requiring or instructing an agency to finalize a document, the
GIG continues to recommend completion of the memorandum; it is the SBA's decision whether to
implement this recommendation. Given that goaling baseline exclusions have been of concern, it seems
logical to complete the analysis since substantial legal research was devoted to draft a position, if for no
other reason than transparency. In addition, the GIG has not disclosed the contents of memorandum,
merely the fact that the memorandum exists, which is not privileged information. Concerning
Managements' dismissal of recommendations four and five, as stated above, we believe the SBA has the
authority to revise the Goaling Guidelines based on SBA's legal opinion; therefore, it should do so. We
reaffirm our recommendations.

Actions Required
Please provide your management decision for each recommendation on the attached SBA Forms 1824,
Recommendation Action Sheet, within 30 days from the date of this report. Your decision should
identify the specific action(s) taken or planned for each recommendation and the target date(s) for
completion.

We appreciate the courtesies and cooperation of the Small Business Administration during this review.
If you have any questions concerning this report, please call me at (202) 205-7390 or Riccardo R. Buglisi,
Director, Business Development Programs Group at (202) 205-7489.



                                                    ***


lsi Original Signed
John K. Needham
Assistant Inspector General for Auditing




                                                     5

Appendix I: Agency Comments




                               US. SMALL BUSINESS ADMINISTRATION
                                     VVASHINGTON, D.C. 20416



Date: 	 November 2,2011

To: 	   John K. Needham
        Assistant Inspector General for Auditing

Re: 	   Draft advisory memorandum titled: "Small Business Administration's Rationale for
        Excluding Certain Types of Contracts from the Annual Small Business Procurement
        Calculations Needs to be Documented"

        This is in response to the Office of Inspector General's (OIG's) draft advisory
memorandum titled: "Small Business Administration's Rationale for Excluding Certain Types of
Contracts from the Annual Small Business Procurement Calculations Needs to be Documented".
In the draft memorandum, the OIG has made the following recommendations to the US. Small
Business Administration (SBA): (1) revise the SBA's Goaling Guidelines to include contracts
awarded and/or performed overseas in the small business goaling base; (2) finalize a draft legal
memorandum concerning exemptions from goaling, dated January 2008; (3) notify the US.
General Services Administration (GSA) of any necessary changes to the Federal Procurement
Data System (FPDS) resulting from changes to the goaling guidance; and (4) issue revised
Goaling Guidelines addressing the finalized legal memorandum. VVe thank the OIG for their
support of our programs and have considered fully your recommendations.

       The OIG's first recommendation is based upon two memoranda issued by SBA's Office
of General Counsel (OGC), which explain that the Small Business Act applies to contracts
awarded overseas and/or performed overseas. The legal memoranda are based upon SBA OGC's
review of the Small Business Act. At this time, the Federal Acquisition Regulations (FAR)
contain specific exemptions for contracts awarded and performed overseas from the Small
Business Act. According to FAR § 19.000(b), FAR Part 19, which addresses the SBA's small
business programs "applies only in the United States or its outlying areas." 48 C.F.R. §
19. OOO(b). FAR subpart 19.6, which address the Certificate of Competency program, applies
worldwide. Id.

        As noted above, the SBA believes that there is no exception in the Small Business Act for
contracts awarded or performed overseas and that its programs apply to contracts awarded or
performed overseas. However, the issue of whether the SBA's programs apply to such contracts
is not settled.


                                                   6

        In addition, one of the memorandum specifically addressed in the OIG audit explained
the following:

       In addition, the above analysis shows that the FAR precludes application of the
       Small Business Act (except the COC program) to 'overseas' acquisitions.
       Although the application of the FAR preclusion is clear with respect to contracts
       both awarded and performed in the United States (it applies) and to contracts both
       awarded and performed outside the United States (it does not apply), it is unclear
       as to whether the FAR states that the Small Business Act applies to contracts
       awarded by contracting offices located in the United States but where contract
       performance takes place overseas. SBA's OGC has opined previously that the
       FAR states that the Small Business Act applies to contracts awarded by
       contracting offices located in the United States, but where contract performance
       takes place overseas; however, this issue has not be clarified in the FAR and we
       believe that most agencies are likely taking the position that the Act does not
       apply to contracts performed and/or awarded overseas.

        Consequently, until the FARis amended procuring agencies will continue to follow its
regulatory direction. As a result, the SBA will not include such contracts as part of its goaling
baseline. We also note that SBA previously initiated a proposal through the FAR regulatory
process to apply the Small Business Act to overseas acquisitions. The voting members of the
FAR unanimously rejected SBA's proposal.

        With respect to the OIG's second recommendation, we do not believe that your office can
require or instruct an agency to finalize a draft document, especially a legal memorandum.
SBA's program officials and OGC make the decision whether to even draft, let alone issue, a
legal memorandum. Further, the draft legal memorandum is a predeliberative and predecisional
document. One court has explained that "examples of predecisional documents include
'recommendations, draft documents, proposals, suggestions, and other subjective documents
which reflect the personal opinions of the writer rather than the policy of the agency. '" Citizens
For Responsibility and Ethics in Washington v. National, 583 F.Supp.2d 146, 166 (D.D.C. 2008)
(quoting Coastal States Gas Corp. v. Dep't of Energy, 617 F.2d 854, 866 (D.C.Cir. 1980); see
also Citizens For Responsibility and Ethics in Washington v. National, 715 F.Supp.2d 134, 139
(2010). Therefore, unless a document is final, including a legal memorandum, it is a document
that merely reflects the personal opinions of the writer and not the policy of the agency. As a
result, it is not clear how the OIG can recommend that the program office finalize a draft
document. Further, there is no need to implement recommendations three and four -- notify
GSA of any changes to FPDS resulting from changes to the goaling guidance based upon the
finalized legal memorandum or issue revised Goaling Guidelines addressing the finalized legal
memorandum.

       We are also concerned that the advisory memorandum references the draft legal
memorandum since it is exempt from public release under the Freedom of Information Act
(FOIA), Exemption 5, as "inter-agency or intra-agency memoranda" since the document is
protected by: (1) the deliberative process privilege; (2) the attorney-client privilege; and (3) the
attorney work-product privilege. See Citizens For Responsibility and Ethics in Washington, 583


                                                 7

F.Supp.2d at 156. Thus, this draft legal memorandum should not be referenced or discussed in
an advisory memorandum that may be made publicly available.

       Thank you for the opportunity to respond to the draft advisory memorandum.


                                   John W. Klein



                                   Acting Director
                                   Office of Government Contracting




                                             8

